                                                  Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General
Subject:   INFORMATION: Notification of Major Project                   Date:    June 21,2006
           Monitoring Effort on the Dulles Corridor Metrorail
           Project
           Project Number: 06M90 14M000
                                                                \     Reply to
 From:     Kurt W. Hyde                                               Attn of:   JA-40
           Assistant Inspector General I
             for Surface and Maritime Programs

           Deputy Federal Transit Administrator
                                                         u
           The Dulles Corridor Metrorail Project proposes to extend Metrorail service in
           the Washington Metropolitan area to Dulles International Airport and beyond.
           The Project, which is currently under the control of the Virginia Department of
           Rail and Public Transportation, is segmented into two distinct phases. Phase I
           of the Project involves extending Metrorail service through Tysons Comer to
           Reston, Virginia and is slated to receive a New Starts full funding grant
           agreement of approximately $900 million. Phase I1 of the Project would
           complete the Metrorail line to Dulles International Airport and beyond to
           Loudon County, although full funding for -this phase has not been secured.
           Phase I and I1 are estimated to cost approximately $2 billion each.

           Recently, the Metropolitan Washington Airports Authority (MWAA) signed a
           memorandum of understanding with the Governor of the Commonwealth of
           Virginia that calls for MWAA to assume control over both phases of the
           Metrorail Project, including the Commonwealth's funding commitments, as well
           as the Dulles Toll Road. MWAA proposes to use Toll Road revenues as the
           main source of funding to provide for Virginia's remaining share of phase I;
           complete phase I1 sooner by ensuring full funding without seeking an additional
           Federal New Starts grant; and make other transportation improvements in the
           Corridor.

           Regarding phase I, currently at issue is whether or not to have a portion of the
           Project pass through a tunnel in Tysons Corner, which could escalate costs. In
           May 2006, the Commonwealth of Virginia formed an expert review panel to
assess the tunnel option. The American Society of Civil Engineers is leading the
panel and is supposed to complete its work in 60 days.

The Department has a vested interest in ensuring that the Dulles Corridor
Metrorail Project is completed efficiently and effectively for a variety of
reasons. Of particular interest is the large amount of Federal funding committed
to it as well, as the Department's lease agreement with MWAA to manage
Dulles International Airport, Ronald Reagan Washington National Airport, and
the surrounding lands. Accordingly, the Office of Inspector General plans to
initiate a major project monitoring effort on the Dulles Metrorail Corridor
Project.

The primary objectives of this ongoing effort will be to monitor (1) the status of
the Project, including costs, funding, schedules, and management, and (2) any
risks that may adversely impact its completion. In addition, we will look at
issues related to the Project's cost effectiveness and the possible transfer of
Project control to MWAA. We will brief you or your staff should we identify
any significant issues in the course of our monitoring effort.

We will conduct the monitoring effort at FTA Headquarters and Regional
offices, the Dulles Metrorail Project Office, and other related sites as needed.
We plan to begin work the week of June 23,2006, and will contact your audit
liaison to schedule an entrance conference. If I can answer any questions or be
of further assistance, please do not hesitate to contact me at (202) 366-5630 or
Tom Yatsco, the Program Director for this effort, at (202) 366- 1302.



cc: Audit Liaison, OST, M- 1
    Audit Liaison, FTA, TBP-30
